   March 13, 2002




Supply Inventory
Management
Management of Terminal Items at
the Defense Logistics Agency
(D-2002-060)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AAC                   Acquisition Advice Code
DIIP                  Defense Inactive Item Program
DLA                   Defense Logistics Agency
DLIS                  Defense Logistics Information Service
FLIS                  Federal Logistics Information System
NATO                  North Atlantic Treaty Organization
NSN                   National Stock Number
SAMMS                 Standard Automated Materiel Management System
                      Office of the Inspector General, DoD
Report No. D-2002-060                                                March 13, 2002
  Project No. (D2001LD-0128)

                       Management of Terminal Items at
                        the Defense Logistics Agency

                               Executive Summary

Introduction. Defense Logistics Agency (DLA) supply centers manage more than
4.1 million national stock number (NSN) items. NSN items that are terminal are those
stocked and non-stocked items managed by the DLA that are not authorized for future
procurement. An NSN is generally classified as terminal when either there is no
known source of supply for the NSN or the NSN is replaced by another NSN. As of
May 2001, DLA supply files included 138,822 terminal NSNs, excluding the clothing
and textile, medical, and subsistence commodities, that had no registered users. Data
records indicated that the “date of last demand” field for those 138,822 NSNs either
had no demand for 5 years or was blank.

Objectives. The overall audit objective was to evaluate the DLA management of
terminal NSN items. This report, the first in a series, addresses DLA management of
43,603 of the 138,822 terminal NSNs. We excluded the remaining 95,219 terminal
NSNs from this audit because they had been identified for review, for reasons other
than being terminal, in prior audits of DLA management of obsolete NSNs (listed in
Appendix A). We also reviewed the management control program as it applied to the
audit objective. The next report will address DLA-managed terminal NSNs with the
Navy as the only registered user.

Results. Item managers at DLA did not review terminal NSNs to determine whether
the NSNs were obsolete. A statistical sample of 110 NSNs indicated that 31,623 of
43,603 terminal NSNs were obsolete and actions had not been taken to delete the NSNs
from the DLA supply system. The sample also indicated that the remaining
11,980 NSNs were obsolete to Military Department requirements, but DLA had not
determined whether there were North Atlantic Treaty Organization or foreign
government requirements for the NSNs. As a result, DLA was incurring unnecessary
supply management costs. For details on the audit results, see the Finding section of
this report. See Appendix A for a discussion of our review of the management control
program.
Summary of Recommendations. We recommend that the Director, DLA, revise
procedures to review terminal items with no registered users for obsolescence and
quantify the number of terminal NSNs that are determined to be obsolete after North
Atlantic Treaty Organization and foreign government review of the NSNs.

Management Comments. DLA nonconcurred with the finding. DLA stated that
terminal items have either undergone an item reduction study or are non-procurable and
terminal items resulting from item reduction studies have an automated program that
cancels the items. In addition, terminal items incur minimal costs and studies are
underway to determine the cost of maintaining inactive NSNs in the supply system and
the viability of the Defense Inactive Item Program (DIIP). DLA concurred with the
recommendation to review terminal items for obsolescence and agreed to include
terminal NSNs in the DIIP provided there is a cost benefit associated with canceling the
NSNs. DLA nonconcurred with the recommendation to quantify the number of
terminal NSNs that are determined to be obsolete after North Atlantic Treaty
Organization and foreign government review of the NSNs. DLA stated that those items
should be sent to the Defense Logistics Information Service to determine whether there
are North Atlantic Treaty Organization or foreign government requirements for the
NSNs. See the Finding section for additional discussion of management comments and
the Management Comments section of the report for the complete text of the comments.

Audit Response. The DLA comments are partially responsive. Although DLA
concurred with the recommendation to review terminal items for obsolescence, its
comments contradict DoD policy. DoD policy requires DoD managers to purge
unneeded items from the inventory and catalog files. The DIIP is an interactive DoD
program that impacts the Military Departments as well as DLA. Consequently, DLA
should not be unilaterally evaluating the cost effectiveness of the DIIP. If DLA
questions the viability of the DIIP, it needs to coordinate any study involving the cost
benefits of the DIIP with the Military Departments and elevate the issue within DoD for
decisions or recommended changes to existing policy. In addition, DLA provided no
valid data to support its statement that the terminal items incur minimal cost. To the
contrary, DLA reported cost avoidance savings of approximately $89 million for the
10-year period ending FY 2001 under its item reduction program for deleting unneeded
items from the supply system. Additionally, the item reduction program was not
effective in automatically canceling obsolete terminal NSNs because none of the
110 NSNs in our audit sample had been canceled. DLA comments also did not address
quantifying terminal NSNs that the North Atlantic Treaty Organization and foreign
governments find to be obsolete. We request that DLA reconsider its position and
provide additional comments on the final report by May 13, 2002.




                                           ii
Table of Contents

Executive Summary                             i


Introduction
     Background                               1
     Objectives                               2

Finding
     Terminal Items                           3

Appendixes
     A. Audit Process
         Scope and Methodology                9
         Management Control Program Review   11
         Prior Coverage                      11
     B. Report Distribution                  13

Management Comments
     Defense Logistics Agency                15
Background

           Materiel Management. Defense Logistics Agency (DLA) supply centers are
           assigned the primary responsibility for materiel management for a group of
           items used by either a particular Service or by DoD as a whole. Materiel
           management responsibilities include cataloging,1 requirements computation,
           procurement direction, distribution management, and disposal direction. DLA
           supply centers manage more than 4.1 million national stock number (NSN)
           items.

           DoD Guidance. DoD Manual 4100.39-M. “Federal Logistics Information
           System (FLIS) Procedures Manual,” April 1999, provides procedures for DoD
           organizations to interface with the FLIS. The FLIS is a management system
           designed to collect, store, process, and provide NSN logistics information.
           Included in the FLIS is information concerning registered users of NSNs. The
           FLIS is managed by the DLA Defense Logistics Information Service (DLIS),
           Battle Creek, Michigan. DoD Manual 4100.39-M defines terminal NSNs as
           stocked and non-stocked items that are not authorized for future procurement.

           DoD Manual 4140.32-M, “Defense Inactive Item Program (DIIP),”
           August 1992, provides procedures for the systematic elimination of inactive, or
           obsolete, NSNs from the DLA supply system and states that items no longer
           needed to support the mission of DoD organizations, other Federal agencies, or
           the International Logistics Program needlessly consume cataloging and supply
           system files, machine time, personnel resources, and warehouse space with
           serious effect on the total supply system. DoD managers at every level are
           expected to place serious and continuous emphasis on the purging of unneeded
           items from the materiel inventory and active catalog files.

           DLA Procedures. DLA Manual 4140.2, “Supply Operations Manual,”
           July 1, 1999, provides policy, uniform guidance, and procedures for DLA
           supply centers to systematically review and eliminate inactive, or obsolete, items
           of supply from the DLA supply system. An item is considered inactive if there
           are no current or future requirements anticipated by any registered user or by
           the integrated materiel manager of the NSN. The manual requires that the
           commander of each supply center designate a DIIP monitor to act as the focal
           point for all matters concerning the DIIP. DIIP monitor responsibilities



1
    The act of naming, classifying, describing, and numbering each item repetitively used, purchased,
    stocked, or distributed so as to distinguish each item from every other item. Also included is the
    maintenance of information related to the item and the dissemination of that information to item users.

                                                       1
     include initiating timely actions to delete an obsolete item from the DLA supply
     system after user interest has been withdrawn and assessing the overall progress
     and effectiveness of the DIIP.

     Terminal NSNs. NSN items that are terminal are those stocked and non-
     stocked items managed by the DLA that are not authorized for future
     procurement. An NSN is generally classified as terminal when either there is
     no known source of supply for the NSN or the NSN is replaced by another
     NSN. DLA uses acquisition advice codes (AACs) to indicate how and under
     what restrictions NSNs will be acquired. NSNs assigned an AAC of V or Y are
     coded as terminal. AAC-V identifies terminal NSNs with DLA inventory.
     AAC-Y identifies terminal NSNs with no DLA inventory. As of May 2001,
     DLA supply files included 138,822 terminal NSNs, excluding the clothing and
     textile, medical, and subsistence commodities, that had no registered users.
     Data records indicated that the “date of last demand” field for those
     138,822 NSNs either had no demand for 5 years or was blank.



Objectives

     The overall audit objective was to evaluate the DLA management of terminal
     NSN items. This report, the first in a series, addresses DLA management of
     43,603 of the 138,822 terminal NSNs. We excluded the remaining
     95,219 terminal NSNs from this audit because they had been identified for
     review, for reasons other than being terminal, in prior audits of DLA
     management of obsolete NSNs (listed in Appendix A). We also reviewed the
     management control program as it applied to the audit objective. The next
     report will address DLA-managed terminal NSNs with the Navy as the only
     registered user. See Appendix A for a discussion of the audit scope and
     methodology, our review of the management control program, and prior audit
     coverage.




                                         2
                   Terminal Items
                   Item managers at DLA did not review terminal NSNs to determine
                   whether the NSNs were obsolete. A statistical sample of 110 terminal
                   NSNs indicated that 31,623 of 43,603 terminal NSNs were obsolete and
                   actions had not been taken to delete the NSNs from the DLA supply
                   system. The sample also indicated that the remaining 11,980 NSNs were
                   obsolete to Military Department requirements, but DLA item managers
                   had not initiated actions to contact the North Atlantic Treaty
                   Organization (NATO) or foreign governments to determine their
                   requirements for the NSNs. The terminal NSNs were not reviewed for
                   obsolescence because DLA guidance excluded terminal NSNs from the
                   DIIP and there was no management control to systematically identify
                   terminal NSNs for item manager review. As a result, DLA was
                   incurring unnecessary supply management costs.



DIIP Process

           Selection of NSNs. Each year, the DLA Standard Automated Materiel
           Management System (SAMMS) screens all NSNs in the DLA supply centers’
           supply files to determine the NSNs that are eligible for the DIIP. Two criteria
           for determining eligible NSNs are that the NSN has been in the Federal supply
           system for 7 years and that the NSN has experienced no demand in the past
           2 years. After eligible NSNs have been identified, SAMMS screens the NSNs
           against catalog and supply data to determine whether the NSNs qualify for the
           DIIP. NSNs that qualify for the DIIP are sent to the DLIS to query FLIS user
           data. NSNs with registered users, primarily the Military Departments, qualify
           for the DIIP and are referred to the Military Departments to review the NSNs
           and notify the supply centers to either delete or retain the NSNs. NSNs with no
           registered users do not qualify for the referral process.

           No Registered Users. When all users have withdrawn their interest and their
           requirements for an NSN, DIIP procedures provide that the NSN be subject to
           the “last user withdrawn” process. In that process, SAMMS assigns DLA as a
           user of the NSN to preclude it from automatically being deleted from the supply
           system and assigns the NSN an inactive item review code2 of X. Each month,
           SAMMS checks each NSN with an inactive item review code of X against
           supply data to determine whether the decision to retain or delete the NSN from

2
    A review code indicates the status of NSNs in the DIIP.



                                                     3
    the supply system requires item manager review. If item manager review is
    required, the inactive item review code is changed to W and supply data is sent
    to the item manager to determine whether the NSN should be deleted from the
    supply system. If item manager review is not required, SAMMS should
    automatically delete DLA as a user of the NSN and initiate actions to delete the
    NSN.

    When a decision is made to delete an NSN from the DLA supply system,
    SAMMS submits a transaction to update the FLIS files. Prior to updating the
    FLIS, DLIS procedures provide that a determination be made as to whether
    there is NATO or foreign government interest in the NSN. If there is interest,
    the NSN is not deleted from the DLA supply system.



Review of Terminal NSNs

    Item managers at DLA did not review terminal NSNs to determine whether the
    NSNs were obsolete. We reviewed a statistical sample of 110 of
    43,603 terminal NSNs. We discussed each sample NSN with responsible DLA
    personnel to determine whether the NSNs were reviewed for obsolescence and,
    if not reviewed, whether actions should be initiated to delete the NSNs from the
    supply system.

    For the NSNs reviewed, supply center personnel advised us that the NSNs had
    not been reviewed for obsolescence and that actions should be taken to delete
    the NSNs from the supply system. In our analysis of the 110 NSNs, we noted
    that DLA supply records showed that 11 of the NSNs were coded as weapon
    system related. To determine whether the 11 NSNs supported active weapon
    systems, we contacted either the weapon system monitor at DLA headquarters
    or the Military Department that managed the weapon system the NSN was
    related to. None of the 11 NSNs were needed to support weapon systems.

    During the course of evaluating the 11 NSNs, we were informed by Air Force
    officials that DLA was deleting other NSNs from the supply system that were
    needed to support active weapon systems. In a future audit, we will evaluate
    DLA management controls used to ensure that NSNs that support active weapon
    systems are not deleted from the supply system.

    Of the 110 terminal NSNs in our sample, 81 were obsolete. We projected the
    81 terminal NSNs across the universe of 43,603 terminal NSNs and estimated
    that 31,623 terminal NSNs should have had actions taken to delete them from
    the supply system. The remaining 29 NSNs in our sample were also obsolete to

                                        4
    Military Department requirements, but codes in the DLIS indicated that NATO
    and foreign governments had requirements for those terminal NSNs. Although
    there had been no demands for those 29 NSNs in at least 5 years, item managers
    had not initiated actions to review the NSNs for obsolescence or contact NATO
    and foreign governments to determine whether the requirements were still valid.
    We projected the 29 terminal NSNs across the universe of 43,603 terminal
    NSNs and estimated that 11,980 terminal NSNs should have had actions taken to
    determine whether they had NATO or foreign government requirements.
    Appendix A provides a detailed discussion of the sampling methodology and
    projected audit results.



Management Controls

    DLA did not review terminal NSNs for obsolescence primarily because DLA
    guidance excluded terminal NSNs from the DIIP and there was no management
    control to systematically identify for item managers terminal NSNs that should
    be reviewed for obsolescence. NSNs do not qualify for the DIIP for various
    reasons, including when an NSN is coded as terminal. DLA Manual 4140.2
    states that terminal NSNs do not qualify for either the DIIP annual review
    referral process to determine whether NSNs are obsolete or the DIIP last user
    withdrawn process. Because terminal NSNs were not included in DLA
    guidance on the DIIP, no controls were put in place to assist item managers in
    identifying terminal NSNs that should be reviewed for obsolescence.

    DLA item managers stated that reviewing terminal NSNs was not a high priority
    and they concentrated on managing NSNs that had current or future
    requirements. Item managers also stated that SAMMS did not systematically
    provide recurring reports to identify terminal NSNs and the length of time the
    NSNs had been in a terminal status. Because there were no records available to
    show how long the 110 sample NSNs had been in a terminal status, we
    evaluated the supply records for the date of last demand. For 50 NSNs, the
    supply records did not show a date of last demand. For the remaining
    60 NSNs, supply records showed that the date of last demand was before 1994
    for 54 NSNs and either in 1994 or later for 6 NSNs.



Cost of Maintaining Obsolete NSNs

    In September 1999, the DLA Office of Operations Research and Resource
    Analysis published a study to provide cost data in support of item reduction

                                        5
    studies. The study included cost avoidance data for eliminating an existing NSN
    from the DLA supply system. The following table shows the results of the
    study.

                                 Cost of Maintaining NSNs

                   Category                                                  Cost

       Average annual cost to maintain a stocked NSN                        $ 400
       Average annual cost to maintain a non-stocked NSN                       200
       Average cost to delete a stocked or non-stocked NSN                      57
       Remaining life-cycle cost avoided by eliminating a stocked NSN        1,495
       Remaining life-cycle cost avoided by eliminating a non-stocked NSN      747


    In prior audits, we used the cost study to calculate the potential for putting funds
    to better use by deleting NSNs from the DLA supply system. In May 2001,
    DLA concurred with our use of the cost study, stating that “the best data
    available to determine the cost of deleting NSNs from the system is the DLA
    Operations Research and Resource Analysis study and we do not dispute the
    estimates of cost avoidance by the team.” In August 2001, DLA amended its
    comments related to our use of the cost study and stated that the study should
    not be used as a basis to determine cost avoidance associated with retaining
    inactive NSNs. We disagreed with DLA and were working to resolve our
    differences on the cost factors for calculating the potential funds that could be
    put to better use. DLA is conducting a study to determine the cost of
    maintaining an inactive item in the supply system that is planned to be
    completed in May 2002. After the study is completed, we will evaluate the
    results to determine whether it provides a valid basis to compute and report the
    cost avoidance applicable to this report.



Management Comments on the Finding and Audit Response

    Management Comments. DLA nonconcurred with the finding. DLA stated
    that terminal items have either undergone an item reduction study or are non-
    procurable and terminal items resulting from item reduction studies have an
    automated program that cancels the items. In addition, terminal items incur
    minimal costs and studies are underway to determine the cost of maintaining
    inactive NSNs and the viability of the DIIP Program. DLA also nonconcurred
    with the materiel management control weakness discussed in Appendix A and
    addressed by Recommendation 1. DLA stated that preliminary cost data



                                            6
    indicates that the costs of maintaining an item are lower than the cost to cancel
    an item. For the full text of DLA comments, see the Management Comments
    section of the report.

    Audit Response. DoD policy states that DoD managers at every level are
    expected to place serious and continuous emphasis on the purging of unneeded
    items from the materiel inventory. In addition, DLA provided no valid data to
    support its statement that terminal items incur minimal cost. To the contrary,
    DLA reported cost avoidance of approximately $89 million for the 10-year
    period ending FY 2001 under its item reduction program for removing unneeded
    items from the supply system. Cost avoidance for the items removed for
    FYs 1999 through FY 2001 were computed using the September 1999 DLA
    Office of Operations Research and Resource Analysis report. Additionally, the
    item reduction program for deleting unneeded NSNs was not effective in
    automatically canceling obsolete terminal NSNs because all 110 NSNs in our
    sample were obsolete to Military Department requirements and none of the
    NSNs were identified and automatically canceled.



Recommendations, Management Comments, and Audit
  Response

    We recommend that the Director, Defense Logistics Agency:

          1. Revise Defense Logistics Agency Manual 4140.2, “Supply
    Operations Manual,” July 1, 1999, to include terminal national stock
    number items with no registered users in the Defense Inactive Item
    Program last user withdrawn process.

    Management Comments. DLA concurred, agreeing to include terminal NSNs
    with no users in the DIIP if the cost study (expected to be completed in
    May 2002) verifies the benefit of canceling NSNs.

    Audit Response. DLA comments are partially responsive. Although DLA
    concurred with the recommendation, it did not adhere to the DoD policy to
    remove unneeded NSNs from the supply system. In addition, the DIIP is an
    interactive DoD program that impacts the Military Departments as well as DLA.
    Consequently, DLA should not be unilaterally evaluating the cost-effectiveness
    of the DIIP. If DLA questions the viability of the DIIP, it needs to coordinate
    any study involving the cost benefits of the DIIP with the Military Departments



                                         7
and elevate the issue within DoD for decisions on recommended changes to
existing policy. We request that DLA reconsider its position and provide
additional comments in response to the final report.

       2. Maintain and report statistics on how many terminal national
stock number items are deleted from the supply system after the North
Atlantic Treaty Organization and foreign governments review the items.

Management Comments. DLA nonconcurred, stating that those items should
be forwarded to DLIS to be coordinated with NATO and foreign government
users.

Audit Response. The DLA comments are partially responsive. We agree that
those items should be forwarded to DLIS for coordination with NATO and
foreign government users, as recommended. That is the normal procedure DLA
should use after it identifies NSNs that have no Military Department
requirements. However, DLA did not address the intent of the
recommendation, which was for DLA to maintain data to quantify potential cost
avoidance for NSNs deleted from the supply system after NATO and foreign
government review of the NSNs. We request that DLA reconsider its position
and provide additional comments in response to the final report.




                                  8
Appendix A. Audit Process

Scope and Methodology

    We reviewed a statistical sample of 110 of 43,603 terminal NSNs to determine
    whether the NSNs were obsolete. The NSNs were taken from DLA supply
    records as of May 2001. For each NSN in our sample, we interviewed the
    responsible Defense Supply Center item manager to determine whether the NSN
    was obsolete. We interviewed item managers located at all three Defense
    Supply Centers: Columbus, Ohio; Philadelphia, Pennsylvania; and Richmond,
    Virginia. We interviewed DIIP monitors at each of the three supply centers to
    determine their role in reviewing terminal items. The documents we reviewed
    included DLA standard operating procedures, DoD and DLA guidance, catalog
    files, demand histories, and supply records and were dated from August 1992
    through January 2002.

    High-Risk Area. The General Accounting Office has identified several high-
    risk areas in DoD. This report provides coverage of the DoD Inventory
    Management high-risk area.

    Use of Computer-Processed Data. We relied on computer-processed data
    provided by DLA to identify terminal NSNs. We did not perform a formal
    reliability assessment of the computer-processed data. To the extent that we
    reviewed the data, we found some errors in supply codes, but those errors did
    not preclude the use of other computer data to meet the audit objective and those
    errors would not change the conclusions in this report.

    Universe and Sample. DLA provided the audit team a database of terminal
    NSNs. The database was provided from May 2001 supply records of NSNs,
    excluding those in the clothing and textile, medical, and subsistence
    commodities, for which the “date of last demand” field in SAMMS either
    indicated no demand for more than 5 years or was blank. That database
    contained 138,822 NSNs. We excluded 95,219 of the 138,822 terminal NSNs
    from the universe because those NSNs were assigned inactive item review codes
    that were addressed in prior audits. The universe for this audit was the
    remaining 43,603 NSNs.

    Statistical Sampling Methodology. The purpose of the statistical sampling
    plan was to estimate the number of terminal NSNs that were obsolete in the
    DLA supply system. DLA supply records identified 43,603 terminal NSNs, for
    which, as of May 2001, the date of last demand field either indicated no
    demands for the past 5 years or was blank. The sampling design was a stratified

                                        9
attribute design. The universe was distributed across four locations. SAMMS
identified one location as the Defense Electronics Supply Center, even though
the center had been disestablished and management of NSNs managed by the
center had been assumed by the Defense Supply Center Columbus. The
following table shows the distribution of the NSNs from the universe and our
sample at each of the four locations (Defense Electronics Supply Center
[DESC], Defense Supply Center Columbus [DSCC], Defense Supply Center
Philadelphia [DSCP], and Defense Supply Center Richmond [DSCR]).

                      Universe and Sample by Location


       Location                    Universe              Sample

       DESC                         17,709                 40
       DSCC                          8,908                 20
       DSCP                          5,065                 20
       DSCR                         11,921                 30

        Total                       43,603                110


Of the 110 NSNs reviewed, 81 were obsolete and 29 required review for current
NATO or foreign government requirements. Based on the sample results, we
projected with a 95-percent confidence level that between 27,963 and
35,283 NSNs of the 43,603 NSNs in the universe were obsolete and actions
should be taken to delete the NSNs from the supply system. The midpoint of
that range is 31,623 NSNs. Additionally, we projected with a 95-percent
confidence level that between 2,548 and 8,034 of the obsolete NSNs in the
universe had stock on hand. The midpoint of that range is 5,291. Likewise, we
projected with a 95-percent confidence level that between 8,320 and 15,640 of
the NSNs needed to be reviewed for NATO or foreign government requirements
before the NSNs could be deleted. The midpoint of that range is 11,980.

Use of Technical Assistance. Personnel in the Quantitative Methods Division,
Office of the Assistant Inspector General for Auditing, DoD, developed the
statistical sampling plan and selected the sample for this audit.

Audit Type, Dates, and Standards. This economy and efficiency audit was
performed from May 2001 through February 2002 in accordance with generally
accepted government auditing standards.

Contacts During the Audit. We visited or contacted individuals and
organizations within DoD. Further details are available on request.


                                  10
Management Control Program Review

     DoD Directive 5010.38, “Management Control (MC) Program,”
     August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
     Program Procedures,” August 28, 1996, require DoD organizations to
     implement a comprehensive system of management controls that provides
     reasonable assurance that programs are operating as intended and to evaluate the
     adequacy of the controls.

     Scope of the Review of the Management Control Program. We reviewed the
     adequacy of DLA management controls over the review of terminal NSNs. We
     reviewed management’s self-evaluation applicable to those controls.

     Adequacy of Management Controls. As defined by DoD Instruction 5010.40,
     we identified material management control weaknesses in the review of terminal
     NSNs with no registered users to determine whether the NSNs should be deleted
     from the DLA supply system. Management controls were not effective to
     ensure that terminal NSNs with no registered users were reviewed for
     obsolescence. The recommendations in this report, if implemented, will correct
     the material weaknesses and could result in potential monetary benefits that have
     not been calculated because of differences with DLA in the cost factors that
     should be used in the calculation. A copy of the report will be provided to the
     senior official responsible for management controls in DLA.

     Adequacy of Management’s Self-Evaluation. DLA did not identify reviewing
     terminal NSNs as an assessable unit and, therefore, did not identify or report the
     material management control weaknesses identified by the audit.



Prior Coverage

     During the past 5 years, the Inspector General, DoD, and the Air Force
     Inspection Agency have issued reports discussing obsolete NSNs. Unrestricted
     Inspector General, DoD, reports can be accessed over the Internet at
     http://www.dodig.osd.mil/audit/reports.


Inspector General, DoD
     Inspector General, DoD, Report No. D-2001-187, “Defense Logistics Agency
     Items Supporting Obsolete Army Weapon Systems,” September 27, 2001



                                         11
     Inspector General, DoD, Report No. D-2001-131, “Items Excluded From the
     Defense Logistics Agency Defense Inactive Item Program,” May 31, 2001

     Inspector General, DoD, Report No. D-2001-035, “Management of Potentially
     Inactive Items at the Defense Logistics Agency,” January 24, 2001

     Inspector General, DoD, Report No. D-2000-185, “Allegations to the Defense
     Hotline Concerning Management of Obsolete Reparable Items,”
     September 7, 2000


Air Force
     Air Force Inspection Agency Report No. PN 00-502, “Purging Obsolete
     Aircraft Major-End Items,” September 19, 2000




                                      12
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Logistics Agency
  Commander, Defense Supply Center Columbus
  Commander, Defense Supply Center Philadelphia
  Commander, Defense Supply Center Richmond



Non-Defense Federal Organization
Office of Management and Budget




                                          13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         14
Defense Logistics Agency Comments




                  15
16
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

Shelton R. Young
Tilghman A. Schraden
Terrance P. Wing
James J. McDermott
Paul A. Hollister
David R. Hasz
Brett A. Mansfield
Lusk F. Penn
